<html>
<title> - NOMINATIONS OF DAVID F. HEYMAN, MARISA J. DEMEO, AND FLORENCE Y. PAN</title>
<body><pre>[Senate Hearing 111-767]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-767
 
  NOMINATIONS OF DAVID F. HEYMAN, MARISA J. DEMEO, AND FLORENCE Y. PAN 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

    NOMINATIONS OF DAVID F. HEYMAN TO BE ASSISTANT SECRETARY, U.S. 
DEPARTMENT OF HOMELAND SECURITY, MARISA J. DEMEO TO BE ASSOCIATE JUDGE, 
 SUPERIOR COURT OF THE DISTRICT OF COLUMBIA, AND FLORENCE Y. PAN TO BE 
      ASSOCIATE JUDGE, SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

                              MAY 13, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

51-028 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
            Christian J. Beckner, Professional Staff Member
               Kristine V. Lam, Professional Staff Member
  Christine S. Khim, Counsel, Subcommittee on Oversight of Government 
    Management, the Federal Workforce, and the District of Columbia
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                   Jennifer L. Tarr, Minority Counsel
Tara L. Shaw, Minority Counsel, Subcommittee on Oversight of Government 
    Management, the Federal Workforce, and the District of Columbia
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk
























                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     2
    Senator Akaka................................................    13
Prepared statements:
    Senator Lieberman............................................    23
    Senator Collins..............................................    24
    Senator Voinovich............................................    24

                               WITNESSES
                        Wednesday, May 13, 2009

Admiral James M. Loy, U.S. Coast Guard (Retired).................     3
David F. Heyman to be Assistant Secretary, U.S. Department of 
  Homeland Security..............................................     5
Hon. Jeff Bingaman, a U.S. Senator from the State of New Mexico..    13
Hon. Charles A. Gonzalez, a Representative in Congress from the 
  State of Texas.................................................    14
Marisa J. Demeo to be Associate Judge, Superior Court of the 
  District of Columbia...........................................    17
Florence Y. Pan to be Associate Judge, Superior Court of the 
  District of Columbia...........................................    18

                     Alphabetical List of Witnesses

Bingaman, Hon. Jeff:
    Testimony....................................................    13
Demeo, Marisa J.:
    Testimony....................................................    17
    Prepared statement...........................................   144
    Biographical and financial information.......................   145
    Responses to post-hearing questions for the Record from 
      Senator Coburn.............................................   166
Gonzalez, Hon. Charles A.:
    Testimony....................................................    14
Heyman, David F.:
    Testimony....................................................     5
    Prepared statement...........................................    26
    Letters of support...........................................    31
    Biographical and financial information.......................    34
    Responses to pre-hearing questions...........................    53
    Letter from the Office of Government Ethics..................   140
    Responses to post-hearing questions for the Record from 
      Senator Akaka..............................................   141
Loy, Admiral James M.:
    Testimony....................................................     3
Pan, Florence Y.:
    Testimony....................................................    18
    Prepared statement...........................................   168
    Biographical and financial information.......................   169


  NOMINATIONS OF DAVID F. HEYMAN, MARISA J. DEMEO, AND FLORENCE Y. PAN

                              ----------                              


                        WEDNESDAY, MAY 13, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Akaka, and Collins.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will now come to order. 
Good afternoon.
    Today the Committee will consider the nominations of three 
individuals: David Heyman to be Assistant Secretary of Homeland 
Security; and then in part two of this hearing, Senator Akaka 
will Chair to hear the nominations of Marisa Demeo and Florence 
Pan to be Associate Judges on the D.C. Superior Court.
    Let us begin with our first nominee, David Heyman, who has 
been nominated by President Obama to serve as Assistant 
Secretary at the Department of Homeland Security (DHS) in 
charge of the Department's Office of Policy, an important 
office. Mr. Heyman has a deep and in some ways unique 
background in the area of homeland security policy. Currently a 
senior fellow at the Center for Strategic and International 
Studies (CSIS), he has led the center's homeland security 
program since 2003. While at CSIS, he has authored studies on a 
range of topics, including the roles and missions of DHS, 
biosecurity, general aviation security, and the balance between 
science and security. Prior to joining CSIS, Mr. Heyman worked 
in the Clinton Administration as a senior policy adviser at the 
Department of Energy and at the White House Office of Science 
and Technology Policy.
    What is the Office of Policy? It plays a significant role 
within the Department, serving as the lead office for the 
development and coordination of department-wide policy. When 
this office was established by former Secretary Chertoff in 
2005, he proposed that it be headed by an Under Secretary. In 
the last two Congresses, in fact, Senator Collins and I have 
sponsored legislation that included this proposal, and I still 
support the elevation of this position and hope to take up 
legislation that attempts to do so again this year.
    Mr. Heyman, if you are confirmed, you will face several 
notable challenges in the coming months and years. First, the 
Department is required by law, as you well know, to carry out 
and publish the Quadrennial Homeland Security Review and report 
to Congress on the results by the end of this year. The 
Committee stands ready to work with you and the Administration 
to implement the results of this review, including through 
authorizing legislation for the Department.
    Second, you are going to be faced with the challenge of 
policy coordination within the Department. Many of the 
operating components have their own policy offices, and 
responsibility for policy in areas such as cyber security and 
information sharing has been ambiguous at times. So we hope 
that you will be able to make it less ambiguous.
    Third, the Office of Policy has begun to play a greater 
role in the acquisition review process and is responsible for 
establishing strategic high-level requirements that can inform 
acquisition decisions. That is very important.
    And fourth, the Office of Policy has played an important 
role in coordinating our policy related to border security and 
terrorist travel in recent years and is responsible for 
ensuring that all DHS efforts in this arena are risk-based and 
results-driven.
    Obviously, the current southwest border threat requires a 
strategic response that targets all of the Department's 
formidable law enforcement resources, and the Office of Policy, 
which you have been nominated to lead, should have a 
significant role to play outlining policy options for the 
Secretary in the fight alongside our Mexican allies against the 
Mexican drug cartels.
    So there is a lot awaiting you. You bring extraordinary 
qualifications to this office. I appreciate that you have been 
willing to serve the public, and I look forward to the 
question-and-answer period.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, often in this room we talk about the 
partnership between the Department of Homeland Security and our 
first responders, and in that regard, I am very pleased to note 
lurking in the back of the room members of the Maine 
Association of Police, who are here this week as part of the 
law enforcement groups that have gathered in our city. So 
having spotted some of my constituents in the back of the room, 
I want to welcome them to Washington and to this hearing.
    I also join the Chairman in welcoming David Heyman as the 
nominee to be the Assistant Secretary for Policy at the 
Department of Homeland Security. The Department's Policy Office 
is tasked with developing a comprehensive approach to policy 
and planning for the Department and with bringing the various 
components of DHS, as well as its State, local, and private 
sector partners, together under a unified vision.
    As Assistant Secretary for Policy, Mr. Heyman, if 
confirmed, would be directly responsible for establishing 
priorities and for seeing that they are implemented on a wide 
range of homeland security issues. The Policy Office is now 
coordinating the Department's Quadrennial Homeland Security 
Review that we look forward to seeing once it is completed in 
December.
    In addition, as the Chairman has mentioned, the Policy 
Office has many other responsibilities, including reviewing the 
continued participation of countries in the Visa Waiver Program 
and ensuring the implementation of the enhancements to the 
security of that program that were included in the 2007 
homeland security law which was authored by this Committee.
    The Policy Office has already made significant strides in 
facilitating the conclusion of agreements with nations in the 
European Union to provide passenger name records on individuals 
traveling to our country. Having this information will help 
identify individuals who may pose a threat to the United States 
before they arrive at our borders. I look forward to hearing 
how this program would be strengthened by the nominee.
    I also look forward to hearing his views on how we should 
reauthorize two important laws that I co-authored, which will 
expire this year. One is the SAFE Port Act, and the other is 
the chemical facility security law. In addition, both the 
Chairman and I have spent a great deal of time focusing on how 
the Department should address the growing cyber security 
threats.
    In other words, this position has a wide range of 
responsibilities, and it is one of the most important in the 
Department. Mr. Heyman has a wealth of experience on homeland 
security policy issues from serving in positions both inside 
and outside of government, most recently as the Director of the 
Homeland Security Program at the Center for Strategic and 
International Studies.
    I would also note that I see that the nominee is in very 
good company with Admiral Loy, here to introduce him today, so 
that certainly speaks well for him.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    Admiral Loy, it is an honor to have you with us. You have 
served our country for a long time with extraordinary honor and 
effect, previously Deputy Secretary at Homeland Security, I 
guess the first person to head TSA, right?
    Admiral Loy. Yes, sir.
    Chairman Lieberman. And before that, great service in the 
Coast Guard. So it does really speak well of the nominee that 
you would take time out of your busy schedule. Senator Collins 
probably knows better than anyone else in the room how 
difficult it is to work with Bill Cohen. [Laughter.]
    Admiral Loy. Or for Bill Cohen.
    Chairman Lieberman. Actually, he is a dear friend and a 
wonderful guy. So please proceed with your introduction.

 TESTIMONY OF ADMIRAL JAMES M. LOY, U.S. COAST GUARD (RETIRED)

    Admiral Loy. Thank you, Mr. Chairman. Thank you, Senator 
Collins. It gives me great personal pleasure to introduce David 
Heyman, the President's nominee for the position of Assistant 
Secretary for Policy at DHS, and I would be remiss if I failed 
to express my personal thanks to the Committee for the diligent 
support offered to me and to Secretary Ridge back in the early 
days of the new Department. It is very hard to believe we are 
actually approaching the eighth anniversary of that fateful day 
in September 2001.
    Let me offer a thought or two, Mr. Chairman, if I may, as 
to why I believe David Heyman will serve our Nation well, if 
confirmed.
    First is his extraordinary personal background of service, 
which you have mentioned already, over 20 years of experience 
in business and government and non-governmental organizations, 
all focused on what has become this extraordinary menu at DHS, 
which Senator Collins mentioned. He has studied deeply, he has 
written convincingly, and he has spoken decisively and often 
about topics ranging from aviation security to bioterrorism, 
from the Department's organization to preparedness as a 
discipline of consequence for all levels of government in our 
country and for each of us as citizens as well.
    He has lived and worked abroad in places like Russia and 
the Middle East, and he brings a personal reflection of these 
other citizens of the world with whom we must collaborate to 
solve so many of the complex challenges that we have facing us 
today.
    I have spent weekends with Mr. Heyman at conferences and 
work sessions where very complex topics were studied to try to 
find better ways to serve our country, especially as we 
continue to learn about and understand the true scope of 
challenges of the post-September 11, 2001, security 
environment. I have read many of his published works, and they 
reflect the depth of research and the clarity of thought that I 
believe are very necessary to consider and design policy 
concepts and then counsel the Secretary and the President.
    On a personal level, I admire Mr. Heyman's even-handed 
perseverance. He is a very good listener and one of those 
people who waits patiently, forming judgments, and then offers 
cogent, thoughtful comment. In many sessions with him, I found 
myself just sort of waiting to see what Mr. Heyman said about 
whatever the topic was that we were discussing or that was on 
the table, and then often I was very glad that I had waited.
    He loves this country. He has worked selflessly in its 
employ in the past, and we are quite fortunate to find 
Americans of his caliber willing to step up again and serve. I 
am honored to introduce David Heyman for your consideration and 
recommend strongly you provide the Senate's consent to his 
nomination and confirm him as the next Assistant Secretary for 
Policy at DHS.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Admiral Loy. That was an 
excellent statement, which means a lot to the Committee. Let me 
say to you that we appreciate the time you took to be here. 
Obviously, if you have the time to stay, you are more than 
welcome. If not, we will understand completely.
    Admiral Loy. I will leave the table to the witness.
    Chairman Lieberman. Thank you.
    Admiral Loy. Thank you so much.
    Chairman Lieberman. David Heyman has filed responses to a 
biographical and financial questionnaire, answered pre-hearing 
questions submitted by the Committee, and has had his financial 
statements reviewed by the Office of Government Ethics. Without 
objection, this information will be made part of the hearing 
record with the exception of the financial data, which are on 
file and available for public inspection in the Committee 
offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath, so Mr. 
Heyman, I would ask you to please stand and raise your right 
hand. Do you swear that the testimony that you are about to 
give to this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God?
    Mr. Heyman. I do.
    Chairman Lieberman. Thank you very much. Please be seated. 
We would welcome your statement at this time and any 
introduction of family or other guests that you have with you.

  TESTIMONY OF DAVID F. HEYMAN \1\ TO BE ASSISTANT SECRETARY, 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Heyman. Thank you, Mr. Chairman, Ranking Member 
Collins, and Members of the Committee who will be joining us 
perhaps shortly. I am deeply honored by the President's 
nomination, Secretary Napolitano's support, and the opportunity 
to appear before you today. I am also deeply honored to be 
introduced by Admiral Loy, one of America's finest public 
servants.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Heyman appears in the Appendix on 
page 26.
---------------------------------------------------------------------------
    There are a number of friends and family here with us today 
that I would also like to thank and recognize. Some of them are 
still here. My wife, Victoria, behind me, is an extraordinary 
professional in her own right, working on international 
development, taking her to places we care very deeply about--
Pakistan, India, and North Africa, to name a few. She is my joy 
and my love and the mother of our 8-week-old son, Henry, who 
has taken leave of this Committee.
    Chairman Lieberman. Henry has returned.
    Mr. Heyman. He is in the back. Thank you, Wendy. The world 
is brighter, though, with both of them here.
    My parents are also here. They came to Washington in the 
1960s, riding a wave of excitement when President Kennedy was 
elected. My father joined the Alliance for Progress and the 
State Department where he worked for 25 years. Both of my 
parents have devoted their lives to public service, to serving 
the Nation and their community, to strengthening democracy, 
improving education, housing, and to the betterment of lives of 
youth and seniors in our communities. My father used to echo 
Kennedy's remarks when I was young that public service was an 
honorable calling. He is right. And my parents inspired me to 
hear that calling. I am glad they could both be here today.
    Chairman Lieberman. Welcome.
    Mr. Heyman. My brother, my sister-in-law, and my niece 
Maddy are here. I should note Maddy is running for office. It 
is her first elected office that she will be running for.
    Senator Collins. As a Republican, I hope. [Laughter.]
    Mr. Heyman. I offer advice that you pay attention to the 
role models up here. They have been elected many times.
    Mr. Chairman, Senator Collins, let me also thank you, your 
fellow Committee Members, and staff for the exceptional 
leadership that this Committee has provided this Nation in 
helping to protect our country. Whether it is the creation of 
the Department of Homeland Security or in its reform post-
Katrina or the many other acts you have worked on, your 
foresight, vision, and leadership have been constant throughout 
difficult times.
    I came to Washington nearly 15 years ago to work in public 
policy. Before doing so, I worked in the private sector for 
nearly a decade as a systems programmer building computer 
systems, doing supply-chain management, for the government and 
for industry. When the Berlin Wall fell, I led my company's 
efforts to set up one of the first offices in Russia, an effort 
that unwittingly set me on a path to Washington. Whether it was 
negotiating export controls with the State Department, setting 
up the first Internet link, or teaching former communist 
employees the benefits of merit-based pay, I learned of the 
extraordinary influence of science and technology in national 
security and international affairs, and I sought out ways in 
which I, too, could help.
    Since then, I have had the privilege and challenge of 
serving this Nation at the highest levels of government you 
have mentioned in your opening remarks, and I thank you for 
that.
    Many years ago, this Committee recognized that there was 
disorganization in the Federal Government and sought to 
organize it by bringing together 22 agencies into one 
Department of Homeland Security. In the aftermath of Hurricane 
Katrina, this Committee recognized that the initial goal of 
bringing all of those disparate missions together had not been 
fully realized. As you, Mr. Chairman, said, I believe, the 
Secretary lacked a central staff and structure to chart 
department-wide strategy and policy, which could then be 
carried out in a coordinated way by the many components of the 
Department. As you know, one of the post-Katrina reforms was 
the creation of the Office of Policy. I sit here today 
recognizing that there is still much to do, many of your 
priorities still to accomplish. In the realm of homeland 
security, we may face challenges--naturally occurring 
disasters, deliberate attacks--all of these so large they 
require the full capabilities of our Nation. We face a 
continuing terrorist threat that is both nimble and dynamic. It 
exploits the seams of our society, operating in the gaps 
between bureaucratic notions of foreign and domestic, State and 
Federal, civil and military. To counter these threats, I 
believe we must have in place a truly national homeland 
security enterprise--one that is as agile and seamless as those 
who seek to harm us, and as capable and responsive as needed to 
prevent, protect against, and, if needed, rapidly recover from 
all hazards. If I am confirmed, I will work every day to meet 
these challenges and to help develop a national culture of 
preparedness that focuses on building more self-reliant 
communities.
    We must institute a greater real-time situational awareness 
capacity, which means better information sharing consistent 
with privacy and civil liberties. We also need to institute a 
national risk-based planning capability. And we must extend and 
bolster our capacity at home by working closely with our 
international partners abroad.
    The place to pursue this work is at the Department of 
Homeland Security and, within it, the Office of Policy. We must 
start by forging one department, one enterprise, with a shared 
vision and integrated results-based operations to support that 
mission. I know the Secretary is deeply committed to this, and 
if confirmed, I will support her and the Department in every 
way I can.
    The struggle against al-Qaeda and other violent extremist 
ideologies is a struggle of ideas. We must in the years ahead, 
through our ideas, our actions, and our example as a Nation, 
defeat and marginalize those who seek us harm. As such, the 
Department of Homeland Security must remain fully committed to 
its mission of keeping America and Americans safe, and we must 
do so while protecting the laws, values, and principles that 
define this great country.
    In this regard, I believe that protecting privacy and civil 
liberties is not only a core American value, not only a 
constitutional requirement, but it is essential if DHS is to 
fulfill its mission of engaging the public as a partner. I am 
excited by the prospect of contributing to this endeavor, if 
confirmed. I believe there is no higher constitutional duty nor 
greater calling than to protect this country and to ensure that 
all Americans can live and thrive in a world free from fear and 
want.
    I am humbled by the tasks before us, but emboldened by 
those I have already met at the Department and throughout the 
streets of America who keep watch over us. I pledge, if 
confirmed, to work with this Committee, our government, and the 
American people in every way I can. And I look forward to your 
questions. Thank you.
    Chairman Lieberman. Well, thank you, Mr. Heyman. That was a 
very eloquent opening statement. I appreciate it.
    I am going to start my questioning with the standard 
questions that we ask all nominees. There will be three of 
them.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Heyman. No.
    Chairman Lieberman. Second, do you know of anything, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Mr. Heyman. No.
    Chairman Lieberman. And, finally, do you agree without 
reservation to respond to any reasonable summons to appear and 
testify before any duly constituted committee of Congress if 
you are confirmed?
    Mr. Heyman. I do.
    Chairman Lieberman. Thank you.
    Let me ask you first about the Quadrennial Review. If 
confirmed, you will have a significant role to play in that 
review. It can be a very important device for a fresh look at 
the Department and at the government's responsibilities for 
homeland security. So I wanted to ask you, if confirmed, what 
specific steps you will take to ensure that the Quadrennial 
Homeland Security Review (QHSR) is developed in a way that has 
meaningful impact and really makes some tough choices between 
competing priorities as opposed to just being a once over 
lightly to what exists now.
    Mr. Heyman. Well, thank you, Senator, for the question, and 
I wholeheartedly agree with your assessment. This Quadrennial 
Homeland Security Review, which Congress, gratefully, created 
as a requirement for the Department and for the Nation, is an 
essential part of the Nation's ability to take stock of where 
we are in our strategy, in our policies, and in our programs 
that have been created to serve and protect the Nation. My 
role, if confirmed, at the Office of Policy is to oversee the 
overall effort of that implementation of the QHSR.
    As you know, the Department of Homeland Security has 
already initiated efforts in this regard. The report is due to 
you at the end of this year, and the ability of that office to 
carry on its responsibilities is critically important in this 
regard.
    I know that the Secretary and the Deputy Secretary have 
both committed to ensuring its success. I believe the Deputy 
Secretary has testified to you on that account specifically.
    I will work with the Secretary, the Deputy Secretary, and 
the team at the Policy Office and all of the components to 
ensure that we have the most effective and responsive 
Quadrennial Homeland Security Review. It happens to be the 
first as well.
    Chairman Lieberman. That is correct. Do you have a clear 
sense of who will be in charge of the Quadrennial Review?
    Mr. Heyman. The obligation to implement the Quadrennial 
Homeland Security Review will fall directly to my office, if 
confirmed. But it will be most successful if the senior 
leadership is committed to its completion, and both the 
Secretary and the Deputy Secretary have made that commitment, 
and the components as well are a part of that process. But it 
is the responsibility of the Office of Policy to make sure that 
it is successful.
    Chairman Lieberman. Good. Let me ask you the kind of 
underlying question that we have been dealing with now since 
September 11, 2001, and that is inherent in a lot of judgments 
the Department makes, and I will take the pleasure of doing to 
you what the media always does to us, which is to hold us 
accountable for something we once said, in your case in 2004 in 
a magazine story. You said, and this is nothing to be defensive 
about, ``There is no question that we have failed as a country 
to describe what risk we are willing to accept. We need to be 
able to make judgments about what level of risk we are willing 
to accept, and that is a really tough thing to do because no 
politician will be willing to say it is OK if''--in the example 
you use--``only 5 percent of the containers are inspected.''
    You are absolutely right. So let me ask you how rationally 
we can make these judgments. As you well know, the 9/11 
Commission said that one of the causes of September 11, 2001, 
was a failure of imagination, which is to say that we failed to 
imagine that people would do to us what the terrorists did on 
September 11, 2001. And so there is a way in which all of us 
have labored under that shadow and that anxiety imagining an 
endless number of ways in which terrorists without regard to 
human life could attack us since we are such an open society.
    How do we allocate our resources and by what process do we 
decide what level of risk we are willing to accept?
    Mr. Heyman. Thank you, Mr. Chairman. It is delightful to 
know that people read my quotes. I do not remember the specific 
one to which you refer, but I can recall the time at which I 
was probably talking about that. It was a time when I felt that 
the decisionmaking processes for homeland security, the way we 
assessed and made priorities and allocated resources, was 
perhaps not as effectively done using risk-based principles as 
I had expected it would be or should be. And I suspect that my 
comment was perhaps intended to encourage a more risk-based 
philosophy, as it were, in the way the government makes those 
types of decisions.
    Chairman Lieberman. So give us an overview of how we would 
do that. Is that to try to estimate what our enemies are most 
likely to try to do?
    Mr. Heyman. I look at risk as having three factors 
associated with it: A threat component, a vulnerability 
component, and a consequence component. You have to, in my 
mind, assess all of those factors to conclude what kind of risk 
we face. Some things are clear threats, but the vulnerabilities 
are low and the consequences are low, and so the risk is low. 
Others may be of high consequence but low threat and perhaps no 
real measurable vulnerability, in which case the risks are also 
low.
    But the ability for the government to make those kinds of 
calculations when it comes to program management, priority 
setting, and decisionmaking is one I have felt that we need to 
be strengthened then and today, probably going forward as well.
    Chairman Lieberman. Well, I encourage you forward on that, 
both within the Department and, to the extent that it works, to 
even give counsel to Members of Congress because in a 
necessarily resource-limited environment, we have to make those 
choices, and those are difficult to do in a way that is 
rational. Now, thank God, we have gone 8 years, and we have not 
suffered another attack on our territory, so that hopefully 
means that we have done some good risk assessment or we have 
sent messages out that have deterred our enemies. But, 
obviously, the threat remains, and we have to make sure that 
our defenses remain as strong as possible.
    Thank you. That was an interesting exchange, at least to 
me.
    Mr. Heyman. To me as well.
    Chairman Lieberman. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman. It was 
interesting to me as well.
    Most people do not realize that the Department of Homeland 
Security has a large international role. Currently, DHS has 
nearly 2,000 personnel based in 79 countries. That is a number 
of Federal employees that is exceeded only by the State 
Department and the Department of Defense, but I would wager if 
you asked most people if DHS had an international presence, 
they would say no.
    In addition to those permanent positions abroad, multiple 
DHS components have hundreds of staffers who are temporarily 
assigned overseas or evaluating operations overseas at any one 
time.
    The Office of International Affairs is within the Policy 
Office, and it is the entity that is responsible for 
coordinating all of the Department's international activities. 
However, this office, which I believe is vitally important, has 
had a great deal of difficulty in carrying out its mission.
    Now, this office is important not only for security 
operations overseas at our ports, for example, but also because 
we are able to learn from other countries such as Israel that 
have great experience in dealing with terrorism. So that is why 
I am concerned that a June 2008 report by the Inspector General 
(IG) highlighted problems in the office and listed 18 
recommendations to improve the management of DHS's 
international affairs.
    It is my understanding that you have been involved in co-
authoring Homeland Security 3.0, which acknowledged the 
importance of these international activities. Have you taken a 
look at the recommendations that the IG has made to improve the 
effectiveness of this office?
    Mr. Heyman. I have.
    Senator Collins. And what are your reactions, in general?
    Mr. Heyman. Well, first, Senator, I would also just like to 
add something I did not say in my opening remarks, and that is, 
my parents spent most of the year in Maine, and----
    Senator Collins. You have my vote. [Laughter.]
    Mr. Heyman. It is one of my favorite places--my wife and I 
got married up there.
    Senator Collins. You show good sense.
    Mr. Heyman. A second vote, maybe? [Laughter.]
    Senator Collins. I will now work for your confirmation. 
[Laughter.]
    Mr. Heyman. I also share your view that the international 
dimensions of homeland security are vitally important, and the 
organization within the policy shop is the place where that 
needs to take place. It is not only important for us to learn 
what is going on abroad, but also to learn the ways that we can 
in our own expertise in this country help improve or share our 
lessons with those with whom we seek to collaborate. And so the 
role of the International Affairs Office is vital. I did write 
in one of the five major recommendations in our 3.0 study that 
the international dimensions need to have greater attention. If 
confirmed, I would welcome an opportunity to do that, to work 
with you and the Committee to improve the ability of the 
Department to engage internationally, both in terms of finding 
a clear direction and also in terms of implementing some of the 
recommendations of that report.
    Senator Collins. Thank you. Continuing on the international 
theme, the Policy Office is also responsible for ensuring the 
full implementation of the security improvements to the Visa 
Waiver Program, which were included in the 2007 homeland 
security law. This requires all countries in the Visa Waiver 
Program to sign information-sharing agreements with the United 
States. Having information on who is on those countries' 
terrorist watchlists and on which individuals have committed 
certain crimes will help our country identify those who may 
pose a danger to our citizens before they arrive at our 
borders.
    Now, I understand that the eight countries that were 
recently admitted to the Visa Waiver Program have signed these 
information-sharing agreements, but the fact remains that the 
vast majority of the more than two dozen incumbent visa waiver 
countries have not.
    What will you do to ensure that negotiations with those 
countries are concluded and the agreements signed, as required 
by the law?
    Mr. Heyman. Well, the Visa Waiver Program enhancements done 
by legislation here, I think, first and foremost were a much 
improved step in the right direction in the sense that we went 
from decades of country assessments to going to individuals. 
For the security of this Nation, that is a much better approach 
in terms of assessing the security risks in those who come to 
this country.
    In terms of the Department's efforts, I am aware of the 
negotiations that are ongoing with the visa waiver countries to 
ensure that those additional agreements for information sharing 
are implemented. I think they are enormously important. I think 
that law enforcement officials here, and perhaps even abroad, 
gain tremendous amounts of ability to do their job with those 
agreements, and I would work toward making sure that they are 
implemented.
    Senator Collins. Thank you. Mr. Chairman, if I could just 
touch on one quick final issue.
    Chairman Lieberman. Go right ahead.
    Senator Collins. Thank you.
    In your pre-hearing questionnaire, you talked about cyber 
security, an issue of great interest to the Chairman and me, 
and you said that DHS currently has four cyber security 
missions: Fighting cyber crime, protecting Federal civilian 
networks, protecting non-Federal critical information 
infrastructure, and defending DHS's networks.
    As you know, there is a big debate going on right now in 
the Administration on who should have what authority over cyber 
security. I, for one, am very concerned if the vast majority of 
authority is placed in the White House under a new czar because 
then we will not have the kind of oversight over that function 
that is desirable. But I am also very concerned that the 
organizational structure may ignore the fact that 85 percent of 
critical infrastructure is in private hands and that DHS is the 
only entity that has that ongoing relationship because of its 
work in securing critical infrastructure.
    How do you believe cyber security efforts in the Federal 
Government should be organized?
    Mr. Heyman. That is an outstanding question, and I know 
that the White House has engaged in their 60-day review to 
answer that question. I was interested in whether that study 
would come out before the hearing or not, whether I would be 
commenting on it. I do not believe the results have come out at 
this point, but cyber security concerns and the threats that 
this Committee has spent a lot of time working on are 
increasing and perhaps warrant much greater attention. And, in 
fact, I know that this Committee has done a lot of work on 
that. The need to oversee that kind of effort at the White 
House is one, I think, that most people agree on.
    As to the role and responsibilities of the Department of 
Homeland Security, there are huge advantages for the 
Department, particularly in its role protecting the Nation's 
critical infrastructure and working in the sector coordinating 
councils as a mechanism for engaging private sector to protect 
the critical infrastructure. I think that the Department's 
equities would be well served to pursue that role.
    I am not privy to the study. I do not know and would not 
want to prejudge it at this point, but I do share your 
concerns. And I would, in my capacity as Assistant Secretary 
for Policy, work with the various elements, the Under Secretary 
for Preparedness and the folks in his directorate who manage 
the day-to-day operations on cyber security, to ensure that the 
Department's role is well served.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Collins.
    I was really interested in your response to one of the 
Committee's pre-hearing questions in which you said that you 
thought the Office of Policy should develop a net assessment 
capability similar in nature to the legendary Office of Net 
Assessment run by the iconic Andy Marshall at the Department of 
Defense. So I wanted to just ask you for a moment what you have 
in mind and why you think this type of capability would be 
useful to the Department of Homeland Security.
    Mr. Heyman. Thank you, Senator. Well, it is something that 
I had thought about as I consider how the Office of Policy can 
be helpful to the Secretary and to the Department. It was my 
view in thinking through this that there are a couple of models 
out there. There is the Department of Defense model, Under 
Secretary for Policy, which has a large capacity to do 
integration across the Department.
    There is also the model in the State Department Office of 
Policy Planning, which is more of a think tank, and as I was 
thinking through this, I thought some sort of hybrid would 
probably benefit the Department, but in order to ensure that 
the long-term view was considered, particularly as it pertains 
to our adversaries, some sort of net assessment capacity was 
needed.
    The day-to-day operations of folks in the components and 
perhaps even with folks working on policy issues that are in 
the inbox requires that somebody be focused on the long term, 
and so in that capacity, I had considered perhaps a net 
assessment would be worth looking at.
    If the Defense Department is a model, it would give 
somebody a job for 30 years.
    Chairman Lieberman. Right. I think that is a very 
interesting idea. I would urge you to go forward and pursue it. 
It is very easy, particularly in a Department of this kind, 
which is dealing with such an array of immediate challenges, 
the ongoing daily concerns about preparedness to both deter and 
respond to a terrorist attack, let alone all the natural 
disasters, and throw in an epidemic of flu and threat from drug 
cartels in a neighboring country, you have quite a mix that 
will draw the Department naturally to the immediate and 
appropriately to the immediate, so I encourage you to pursue 
that as you go forward.
    Well, thanks. Your answers to the questions both before and 
at the hearing have been excellent. I certainly intend to 
support your nomination, even though you have not yet stated 
any connection to the State of Connecticut. [Laughter.]
    Mr. Heyman. My cousin went to Yale.
    Chairman Lieberman. Oh, well, OK.
    We will keep the record of this hearing open until 12 noon 
tomorrow for the submission of any post-hearing questions or 
statements. I am going to recess the hearing in a moment. 
Senator Akaka will be here soon to preside over the nominations 
of the two judges to the District Court. When I do so, Mr. 
Heyman, you are certainly free to leave. It has been a pleasure 
to hear you, to see you again, and to see the obvious pride of 
your family behind you.
    With that, the hearing will stand in recess.
    Mr. Heyman. Thank you.
    [Recess.]

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka [presiding]. This hearing will be in order. 
Good afternoon. I want to welcome all of you to this hearing, 
especially our panelists and Senator Bingaman, to this 
Committee on Homeland Security and Governmental Affairs to 
consider the nominations of Marisa Demeo and Florence Pan to be 
Associate Judges on the District of Columbia Superior Court.
    I want to extend a special welcome to the nominees and your 
families that are here. I am pleased that we are holding a 
hearing today to consider such well-qualified candidates--and I 
have read your resumes. I believe it is important to fill D.C. 
judicial vacancies promptly, and it is my hope that the 
Congress will act quickly on these nominations.
    Before we move on, I would like to yield to allow our 
distinguished guests to introduce the nominees. Senator 
Bingaman and Congressman Gonzalez, it is a pleasure to welcome 
you to this Committee today.
    Senator Bingaman, please go ahead with your introduction of 
Ms. Pan.

TESTIMONY OF HON. JEFF BINGAMAN, A U.S. SENATOR FROM THE STATE 
                         OF NEW MEXICO

    Senator Bingaman. Thank you very much, Mr. Chairman, and 
thanks for your courtesies and attentiveness to this nomination 
and the speed of this hearing.
    My wife and I have known Florence and her husband, Max, 
since before they were married, and we have the greatest 
respect for both of them, and particularly for purposes of 
today's hearing, we want to strongly recommend Florence Pan for 
this important position.
    She has a compelling personal story, of which I am sure 
that you are aware, of her parents coming here in, I believe, 
1961. She has a distinguished resume. She has been educated at 
our best schools and has developed a very distinguished career 
since then, both in the Department of Justice and in the 
private sector, but more recently in the U.S. Attorney's Office 
here in the District of Columbia.
    She has the capability and the desire to serve the public 
in a very important position in the Superior Court, and we are 
very fortunate, I think, as a country to have people of her 
quality who are willing to serve in public office. And so I 
think she is an extremely good choice by the President, and 
this is emblematic of the choices he has been making generally 
in his nominations that we have seen here in the Senate, but I 
think she stands out even in that crowd.
    So I very much commend her to you and to the full Committee 
and hope that you will act favorably on her nomination and 
recommend her to the full Senate and that we can confirm her 
for this position very soon. Thank you.
    Senator Akaka. Thank you very much, Senator Bingaman, for 
your statement. We will certainly consider what you have said. 
You know that we respect you a lot here as well. So thank you 
very much, and I know you are busy, so we will continue with 
the hearing.
    Mr. Gonzalez, will you please introduce Ms. Demeo?

  TESTIMONY OF HON. CHARLES A. GONZALEZ, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gonzalez. Thank you very much, Chairman Akaka, for the 
opportunity of making this introduction. I would also like to 
thank the rest of the Members of the Senate Committee on 
Homeland Security and Governmental Affairs.
    I am here today as First Vice Chair of the Congressional 
Hispanic Caucus to introduce the Hon. Marisa J. Demeo, nominee 
for Associate Judge for the Superior Court of the District of 
Columbia. The Congressional Hispanic Caucus (CHC) is proud to 
have endorsed Judge Demeo for this position and is happy to be 
present here today to show our continued support for her 
confirmation.
    Marisa J. Demeo was installed as magistrate judge on 
September 7, 2007. Judge Demeo was born in Washington, DC, and 
raised in Dale City, Virginia. She graduated from Princeton in 
1988, where she received her Bachelor of Arts degree in 
politics, with a concentration in Latin American studies.
    Ms. Demeo worked for 2 years as a paralegal for the U.S. 
Department of Justice Civil Rights Division. She went on to 
receive her Juris Doctor from New York University (NYU) School 
of Law in 1993, where she served on the Law Review. At NYU, Ms. 
Demeo was selected as a Root-Tilden Scholar for her academic 
achievement and commitment to public interest issues. She also 
received graduation awards for her clinical work representing 
juveniles charged with offenses in the New York Family Court 
and for her service to the law school.
    After graduating from law school, Ms. Demeo served with 
distinction as an honors program trial attorney in the 
Department of Justice (DOJ) Civil Rights Division, Employment 
Litigation Section, where she prosecuted public employers for 
patterns or practice of employment discrimination in the 
Federal courts around the country and received two awards for 
her outstanding work. In 1997, she left DOJ to work for the 
Mexican American Legal Defense and Educational Fund (MALDEF), a 
national Latino civil rights organization, where she advocated 
on immigrants' rights issues, and this is where I came to know 
her with members of the Congressional Hispanic Caucus.
    After a short period as a staff attorney at MALDEF, Ms. 
Demeo was promoted to head the MALDEF D.C. office, where she 
served as the national advocate on the Hill, in the White 
House, and with the Federal agencies on a wide array of Latino 
civil rights issues, including employment, voting rights, 
immigration, education, and criminal justice.
    During her time at MALDEF, she received numerous community 
service and leadership awards including recognition from the 
Hispanic Bar Association of the District of Columbia, the 
Congressional Black Caucus, NYU School of Law, the National 
Puerto Rican Coalition, and the U.S. Census Bureau.
    In 2004, Ms. Demeo joined the U.S. Attorney's Office for 
the District of Columbia as an Assistant U.S. Attorney, where 
she served in the misdemeanor trial section, the felony trial 
section, the grand jury section, and the sex offense/domestic 
violence trial section. During her time at this office, Ms. 
Demeo handled 45 criminal trials and presented over 30 felony 
cases to the grand jury, which resulted in indictments. She 
received two awards for her work in this capacity.
    Ms. Demeo has also served as adjunct professor at Howard 
University School of Law, where she taught criminal procedure 
and immigration law. In 2005, Ms. Demeo was appointed by the 
District of Columbia Court of Appeals to the District of 
Columbia Access to Justice Commission, which is charged with 
the responsibility of increasing access for low- and moderate-
income residents in the District to the civil justice system. 
She served on the Commission for 2 years.
    As you can gather from her extensive and diverse 
experience, Judge Demeo is highly qualified to serve as 
Associate Judge for the Superior Court of the District of 
Columbia. And I do want to end with just one observation, 
Senator. I have had the great privilege of working with Ms. 
Demeo, and I was always impressed. It is just not about 
demeanor. It is about good judgment. Understanding that there 
are two sides to every argument, and in most cases there are at 
least eight, even when it is a uncontested matter. But truly 
appreciating the purpose of the justice system and that all 
people have access and that justice is not a present but, 
rather, obviously, following the law and precedent and the 
facts that are before that particular judge.
    There is no doubt in my opinion and that of the 
Congressional Hispanic Caucus that she truly deserves 
confirmation, and I again appreciate the opportunity of making 
this introduction.
    Senator Akaka. Well, I thank you very much for your 
statement. We will, of course, seriously consider your 
statement, and your work here in the Congress speaks for you 
greatly. I thank you so much for being here. I know you are 
busy, and we will continue with the hearing. But thank you so 
much for coming.
    Both of the nominees before us have strong legal 
backgrounds, as you have heard in the statements that have been 
made, and they have devoted much of their careers to work in 
the public sector. Judge Demeo currently is a magistrate judge 
on the D.C. Superior Court and worked before that court as an 
assistant district attorney. And Ms. Pan has worked as an 
assistant district attorney for the District of Columbia for 
over a decade, where she has successfully prosecuted many 
criminal cases.
    If confirmed, I am confident Judge Demeo and Ms. Pan have 
the experience to make valuable contributions to the D.C. 
Superior Court bench, and I want you to know that we will try 
to move this confirmation as quickly as we can.
    Both of the nominees I know have filed responses to a 
biographical and financial questionnaire submitted by the 
Committee. Without objection, this information will be made a 
part of the hearing record, with the exception of the financial 
data, which will be kept on file and made available for public 
inspection in the Committee offices.
    Our Committee rules require that all witnesses at 
nomination hearings give their testimony under oath. Therefore, 
at this time I would ask you to please stand and raise your 
right hand.
    Do you solemnly swear that the testimony you are about to 
give this Committee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Judge Demeo. I do.
    Ms. Pan. I do.
    Senator Akaka. Thank you very much. Let the record note 
that the witnesses responded in the affirmative.
    I understand that you have family members here, and I would 
like to give each of you an opportunity to introduce your 
family and any friends or even supporters who are here with you 
before we proceed to your statements.
    Judge Demeo, will you please introduce your family?
    Judge Demeo. Thank you very much. I would like to first 
introduce my parents, Palmer Demeo and Emilia Mauras Demeo; my 
sister, Priscilla; my cousin, Melissa Milam, and her husband, 
Terrell; and my partner, Angela Arboleda, who works for the 
Senate Majority Leader.
    Many other people have come here to support me today, 
people from the court, from the U.S. Attorney's Office, from 
the Public Defender Service, and others who serve the community 
on the national and local level. Although I do not have time to 
thank them all individually, I do appreciate their support in 
being here, and it is this broad support that creates in me a 
sense of responsibility to serve the public and to do so fairly 
and impartially.
    Senator Akaka. Thank you very much.
    Ms. Pan, will you please introduce your family and friends?
    Ms. Pan. Thank you, Mr. Chairman. I am joined here today by 
my husband, Max Stier; our two children, Zachary and Noah, who 
are 4\1/2\ and 3, and they are wearing new suits.
    I am also joined by my parents, Wu-Ching and Felicia Pan, 
and they flew in from China to be here today.
    My sister, Gloria Pan, is here, and Andrea and Richard 
Danzig, who are my husband's aunt and uncle, and Lisa Danzig, 
who is his cousin.
    I would also like to acknowledge and thank for their 
presence a number of friends who are here to support me today: 
Anne Bingaman is here, Chief Judge Lee Satterfield of the 
Superior Court is here. I very much appreciate his presence.
    And I am sorry, I forgot to introduce somebody very 
important, Yvonne Johnson, who is the caretaker for my 
children, and she is the reason that I can really be here today 
as a nominee. So I want to thank her as well.
    Senator Akaka. Thank you very much for introducing your 
families and friends and supporters. I am sure they are proud 
of all you have accomplished.
    Ms. Pan, I had the opportunity to chat with your husband, 
Max, about your nomination a few days ago.
    You probably will not be surprised to know that he 
considers you a very highly qualified person as well. 
[Laughter.]
    Ms. Pan. I appreciate his support.
    Senator Akaka. And, Judge Demeo, will you please proceed 
with your statement?

TESTIMONY OF MARISA J. DEMEO\1\ TO BE ASSOCIATE JUDGE, SUPERIOR 
               COURT OF THE DISTRICT OF COLUMBIA

    Judge Demeo. I did want to thank, although he had to leave 
early, Congressman Gonzalez and the Congressional Hispanic 
Caucus for their support throughout this process. I would also 
like to thank you, Mr. Chairman, and the Members of the 
Committee for scheduling this hearing and taking the time to 
consider my qualifications for the position of Associate Judge. 
It is a true honor to have the privilege to appear before you 
today. I would also like to thank the Committee staff as well 
for their hard work in collecting and reviewing my 
qualifications.
---------------------------------------------------------------------------
    \1\ The prepared statement of Judge Demeo appears in the Appendix 
on page 144.
---------------------------------------------------------------------------
    I would like to thank Federal District Judge Emmet Sullivan 
and all the members of the D.C. Judicial Nominations Commission 
for forwarding my name to the White House. And I really do have 
to mention Federal District Judge Urbina, who is here today, 
and I want to thank him for all of his support.
    I also want to thank President Barack Obama for nominating 
me for the position and the staff in the White House who worked 
diligently and conscientiously throughout this process.
    My father's parents were immigrants from Italy who came to 
this country with little education but with the belief that 
they wanted to have a better life and a willingness to work 
hard for that better life for them and their children. That 
hard work paid off when my father had the opportunity to attend 
Georgetown University. My mother was born and grew up in Puerto 
Rico, her own parents having only reached a high school 
education. Despite socioeconomic barriers, my mother, through 
faith in God and hard work, excelled in school, went to the 
University of Puerto Rico, and came to the United States for a 
better life.
    My parents met here in Washington, DC, and as they say, the 
rest is history. My parents raised my brother, my sister, and 
me in a strict environment in which we were taught the values 
of faith, family, integrity, education, and hard work. I also 
learned growing up the values of being humble and fair. With 
those values, I have studied hard, worked hard, and dedicated 
my career to the service of the public.
    Over the last 5 years, I have particularly dedicated myself 
to serving the District of Columbia by my work as a criminal 
prosecutor, as a magistrate judge, and as an adjunct professor 
at Howard University School of Law. I hope you will find, after 
reviewing my record, that I would be a fair and impartial judge 
who would bring integrity and respect to the bench. Thank you.
    Senator Akaka. Thank you very much for your statement, 
Judge.
    And now we will hear from Ms. Pan. Your statement, please.

    TESTIMONY OF FLORENCE Y. PAN \1\ TO BE ASSOCIATE JUDGE, 
           SUPERIOR COURT OF THE DISTRICT OF COLUMBIA

    Ms. Pan. Thank you, Mr. Chairman. I am reminded that there 
is one person I forgot to acknowledge who is here today, and I 
would like to thank John Neuffer, who is my brother-in-law, who 
is also here. I am sorry that I overlooked him the first time.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Pan appears in the Appendix on 
page 168.
---------------------------------------------------------------------------
    I also want to thank Senator Bingaman for the kind remarks 
that he made in the introduction.
    I am very grateful for the opportunity to be here before 
the Committee as a nominee to be an Associate Judge on the D.C. 
Superior Court. I want to thank President Obama and the D.C. 
Judicial Nomination Commission for this great honor.
    I also want to thank the Committee for considering my 
nomination so expeditiously. I want to thank the Committee 
staff for the courtesy that they have shown me and their 
professionalism.
    In 1949, my grandparents fled mainland China when the 
Communist Party came to power. They settled in Taiwan, bringing 
with them my parents. My parents came to the United States in 
1961 to pursue graduate degrees in New York City. They chose to 
stay here because of the limitless opportunities that this 
country offered their children.
    I think it is fair to say that my presence before this 
Committee is a fulfillment of all that they hoped for and 
dreamed of when they made that decision to put down their roots 
here in America.
    I would also note that my nomination is particularly 
meaningful to my father because his father was a judge on an 
administrative court in China before he was forced to flee to 
Taiwan.
    For the past 10 years, I have been privileged to serve the 
citizens of the District of Columbia as an Assistant U.S. 
Attorney. I have appeared extensively in Federal, State, and 
local courts here in this jurisdiction, and I have had the 
opportunity to come into contact with myriad people from this 
community.
    My respect for the Superior Court and the judges who serve 
on this court is profound. I have seen the important work that 
they do firsthand. If confirmed, I will do my utmost to give 
the citizens of the District of Columbia the very highest 
quality of justice, and I pledge to approach my role as a judge 
with humility and diligence and to apply the law with 
thoughtfulness and impartiality.
    Thank you again for the opportunity to be here today, and 
thank you for your consideration of my nomination.
    Senator Akaka. Thank you very much, Ms. Pan, for your 
statement. I will begin with the standard questions this 
Committee asks of all nominees, and I would like each of you to 
answer the questions.
    Is there anything you are aware of in your background that 
might present a conflict of interest with the duties of the 
office to which you have been nominated?
    Judge Demeo. No, Mr. Chairman.
    Ms. Pan. No, Mr. Chairman.
    Senator Akaka. Do you know of anything, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Judge Demeo. No, Mr. Chairman.
    Ms. Pan. No, Mr. Chairman.
    Senator Akaka. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of Congress if you are confirmed?
    Judge Demeo. I do, Mr. Chairman.
    Ms. Pan. Yes, Mr. Chairman.
    Senator Akaka. Thank you very much for your responses.
    Now, this is a question to both of you. You are both 
without question accomplished attorneys who have handled 
important cases for the U.S. Attorney's Office and elsewhere. 
Why did you seek nomination to become a D.C. Superior Court 
judge? And what contributions do you hope to make, if 
confirmed?
    Judge Demeo. If you wish, I can go first. I am seeking the 
position of an Associate Judge in order to continue my service 
to the public. My entire career has been dedicated to serving 
the public, and I find this to be a continuation of that 
service. I have always worked either in the nonprofit sector or 
for government agencies trying to ensure justice for 
communities at different levels, whether they be national or 
local. And in the last few years, being a resident of the 
District, being very committed to the community and the 
District, I have really focused my attention on trying to serve 
the local community. And I have done that recently as a 
magistrate judge, and I believe that I can develop that further 
as an Associate Judge.
    In terms of the qualities that I could bring, I hope, to 
the bench, it is to continue to emulate those judges whom I 
admire, and those are qualities such as developing knowledge of 
the law, bringing integrity to the bench, bringing fairness to 
the bench, being sensitive to diverse communities. Those are 
the qualities I hope to bring.
    Senator Akaka. Thank you very much. Ms. Pan.
    Ms. Pan. I, too, have devoted my career to public service, 
and I see this as an extension of the work that I have been 
doing at the U.S. Attorney's Office in trying to bring and 
promote the cause of justice here in the District of Columbia. 
I cannot think of a more fascinating or rewarding job than to 
be an Associate Judge on the Superior Court or a better 
opportunity to serve the community.
    I have seen the work of the court firsthand, as I mentioned 
in my opening statement, and in terms of the volume and the 
types of cases that are brought in that court, it has such an 
important impact on the community here in the District of 
Columbia, and I see this opportunity as a means of continuing 
to serve the community in this very important capacity.
    Senator Akaka. Thank you.
    Ms. Pan, while you have many years of legal experience as 
an attorney for the Federal Government, you have never been a 
judge.
    Ms. Pan. That is correct.
    Senator Akaka. What do you anticipate your biggest 
challenge will be in becoming a judge? And how do you plan to 
overcome that challenge?
    Ms. Pan. Well, I think it will be a challenge to shift 
gears for myself, having for 10 years represented the United 
States of America. And I feel, however, as a prosecutor that my 
goal has been to do justice and not just to win a case. So I 
think that my role as a judge will be in many ways similar to 
my role even as an advocate at the U.S. Attorney's Office. I 
think there will be certainly challenges for me because it will 
be new to me to be ruling on matters instead of arguing as an 
advocate, but I think that it is a challenge that I am prepared 
to take on.
    Senator Akaka. Thank you.
    Judge Demeo, I would like to direct that question to you as 
well. What do you think your biggest challenge will be as you 
transition from a magistrate to an Associate Judge? And how 
will you address the challenge?
    Judge Demeo. The biggest challenge is that the amount of 
responsibility that I will have will substantially increase. As 
a magistrate judge, I am limited in my jurisdiction to only 
handle very minor misdemeanor cases. I am in the Criminal 
Division. And if I am confirmed by the Senate, then I will move 
into an Associate Judge position, which would allow me the 
opportunity to handle very serious cases, felony cases 
eventually, jury matters, and so the responsibility to the 
community and to the parties before me will substantially 
increase because the stakes are that much greater.
    In terms of how I will address that challenge, I will 
continue to be a studier of the law because that is very 
important to me, to continue to learn the law and be an expert 
in it so that those who appear before me find me to be 
knowledgeable, so that I can have adequate rulings in line with 
what the law is; also to remain sensitive to all the parties, 
no matter how many cases I might hear, to always have an open 
mind and to ensure that I always treat the parties before me 
fairly, so that no matter what the result is, no matter if 
individuals lose or win, are found guilty or not guilty, my 
goal would be to have the parties leave feeling that they had a 
fair judge and they were satisfied with the system of justice 
that appears in the D.C. Superior Court.
    Senator Akaka. Thank you.
    Ms. Pan, for the past decade, you have practiced criminal 
law as an Assistant U.S. Attorney. Having focused so heavily on 
criminal law in your career, please tell us how you plan to 
familiarize yourself with civil law and procedure?
    Ms. Pan. Mr. Chairman, my understanding is that the court 
has very good training programs for judges. I think that all of 
the judges on the Superior Court are required to learn new 
areas of the law. Because the court does have so many different 
calendars, specializing in so many different areas, there is no 
judge that starts on this bench who is an expert in all of 
them.
    I will certainly apply myself to learn the new areas of 
law, and I am quite excited, actually, to be able to develop 
expertise and to learn about different areas of law and to 
apply these different areas of law.
    Senator Akaka. Thank you.
    Judge Demeo, you have spent most of your career as a civil 
rights attorney. Since then, you have served as a magistrate 
judge on the D.C. Superior Court. How did you handle the 
transition from advocacy to take on the magistrate role of a 
neutral third party?
    Judge Demeo. As Ms. Pan has already said, it is an 
adjustment to go from being an advocate in the courtroom to 
being the judge in the courtroom. I think that my diverse 
experience prepared me well because I have done civil rights 
advocacy on behalf of plaintiffs, but I have also done criminal 
prosecution on behalf of victims. And so when you think about 
the parties that appear in the courtroom, oftentimes it is 
plaintiffs versus defendants and one party against another. And 
I have really worked with both sides in my career. So being in 
the judge position has allowed me to take a step back already 
in the magistrate position and listen to the parties and be 
open to both sides because I do respect both sides.
    Senator Akaka. Thank you.
    Ms. Pan, a judge often faces pressure to rule on complex 
issues both quickly and correctly. How has your experience as 
deputy chief of the appellate division prepared you to do this?
    Ms. Pan. Mr. Chairman, I think that my experience as deputy 
chief in the appellate division of the U.S. Attorney's Office 
has prepared me very well to rule on matters of law quickly and 
decisively, and hopefully correctly. As deputy chief, I am 
required to keep up with all the law--and, admittedly, this is 
criminal law, but I train Assistant U.S. Attorneys on different 
areas of the law. I field phone calls from courtrooms for 
people who need advice about what to do. And I think that the 
types of advice and the types of judgment calls I have had to 
make in my capacity as a deputy chief are in some ways very 
similar to making rulings as a judge. So I think that has 
prepared me very well.
    Senator Akaka. You just heard the buzzer. We are being 
called to three votes on the floor, so let me ask my final 
question to both of you.
    During your years practicing law, you have appeared before 
many judges and no doubt learned a great deal from observing 
them. Will you describe some qualities you hope to emulate as a 
judge and those you hope to avoid? Judge Demeo.
    Judge Demeo. I would like to emulate those judges who have 
demonstrated knowledge of the law. Obviously, you want to be 
before a judge who, when you are arguing the cases and the 
statute, knows what you are talking about. So I want to be one 
of those judges.
    I also want to make timely decisions. You do not want to 
wait around a long time trying to figure out what the judge is 
going to rule. You want clear rulings and an explanation of 
those rulings, and I would like to be that kind of judge.
    I also want to be a fair judge, a judge that, again, 
parties feel, regardless of the outcome, listened to them with 
an open mind and was fair.
    I guess the one big trait I hope to avoid is bad 
temperament on the court. I have seen plenty of judges through 
my career who have bad temperament, and it just does not set a 
good tone for the litigation before the court, for the parties, 
for the witnesses, for the observers. And so I will work hard 
to avoid any issue that would raise those kinds of questions.
    Senator Akaka. Thank you very much. Ms. Pan.
    Ms. Pan. Mr. Chairman, I agree very much with the 
sentiments just expressed by Judge Demeo. I think it is 
extremely important for judges to be fair and open-minded, 
willing to listen to the parties. And I think that parties will 
very much appreciate a judge who they feel has listened to 
their positions, and I would want to be that kind of a judge.
    I also think it is very important to be knowledgeable about 
the law because that is what allows a judge to make rulings 
promptly and hopefully correctly, and certainly the temperament 
issues that Judge Demeo identified, I would agree with that. I 
think it is very important for judges to always be professional 
and to treat people with courtesy and respect. And I would note 
that as an appellate lawyer, I have read many transcripts, and 
I know that my current colleagues at the U.S. Attorney's Office 
will be reading my transcripts, and that will certainly give me 
an incentive to not say anything that I will regret later.
    Senator Akaka. Well, thank you very much. There are no 
further questions at this time.
    There may be additional questions for the record, which 
will be submitted to you in writing. The hearing record will 
remain open until the close of business tomorrow for Members of 
the Committee to submit additional statements or questions.
    It is my hope that the Committee and the Senate will be 
able to act on your nominations in the near future, and as 
quickly as we can, too, and I want to wish both of you the best 
in what is ahead of you. I also want to thank you for bringing 
your families. It is really great to see why you are here. Of 
course, it is your families that have helped you along the way, 
and it really makes a huge difference to have their support. It 
was good to get to know your families today.
    So thank you very much for being here. This hearing is 
adjourned.
    [Whereupon, at 4 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


     PREPARED OPENING STATEMENT OF SENATOR LIEBERMAN FOR MR. HEYMAN

    We will move to our first nominee this afternoon, David Heyman, who 
has been nominated to serve as Assistant Secretary at the Department of 
Homeland Security, in charge of the Department's Office of Policy.
    Mr. Heyman has a significant background in the area of homeland 
security policy. He is currently a Senior Fellow at the Center for 
Strategic and International Studies, and has led the Center's Homeland 
Security Program since 2003.
    While at CSIS he has authored studies on a range of topics 
including the roles and missions of DHS, biosecurity, general aviation 
security and the balance between science and security.
    Prior to joining CSIS, he worked in the Clinton Administration as a 
senior policy advisor at the Department of Energy and at the White 
House Office of Science and Technology Policy.
    The Office of Policy plays a significant role within DHS, serving 
as the lead office for the development and coordination of department-
wide policy.
    When this office was established by Secretary Chertoff in 2005, he 
proposed that it be headed by an Under Secretary for Policy.
    In the last two Congresses, Senator Collins and I have sponsored 
legislation that included this proposal. I still support the elevation 
of this position, and I expect to take up legislation that addresses 
this again this year.
    Mr. Heyman, if you are confirmed, you will face several notable 
challenges in the coming months and years.
    First, the Department is required by law to carry out the 
Quadrennial Homeland Security Review and report to Congress on the 
results by the end of this year.
    It is critical that the QHSR meet this deadline so it can serve as 
a timely vehicle we can use to examine the roles, missions, 
authorities, and funding priorities of DHS and other agencies with 
homeland security responsibilities.
    This Committee stands ready to work with the Administration to 
implement the results of this review in 2010, including through DHS 
authorizing legislation.
    Second, you will be faced with the challenge of policy coordination 
within the Department.
    Many of the operating components of the Department have their own 
policy offices, and responsibility for policy in areas such as 
cybersecurity and information-sharing has been ambiguous at times.
    If you are confirmed, it is critical that you take steps to improve 
policy coordination across the Department, to ensure that policy 
decisions are consistent and are made efficiently.
    Third, the Office of Policy has begun to play a greater role in the 
acquisition review process at DHS and is responsible for establishing 
strategic high-level requirements that can inform acquisition 
decisions.
    This new mission of the Office of Policy will help to ensure that 
the billions of dollars of acquisitions that are made by DHS each year 
are consistent with the Secretary's priorities, and are developed in a 
way that avoids waste and unnecessary duplication.
    Fourth, the Office of Policy has played a very important role in 
coordinating policy related to border security and terrorist travel in 
recent years, and is responsible for ensuring that all DHS efforts in 
this arena are risk-based and results-driven.
    Since its inception, DHS has implemented a series of programs aimed 
at interdicting terrorist travel, including US-VISIT, ESTA, and WHTI, 
and it is vitally important that the Office of Policy be involved in 
the coordinating their current activities and helping to plan for the 
future.
    Additionally, the current southwest border threat requires a 
strategic response that targets all of the Department's formidable law 
enforcement resources, and the Office of Policy should have a 
significant role to play outlining policy options in the fight against 
the Mexican drug cartels.
    These are just a few of the critical issues that the Assistant 
Secretary of Policy must help the Secretary and DHS component agencies 
collectively address.
    I am confident that you have the background and competence to carry 
out the responsibilities of Assistant Secretary for Policy, and I look 
forward to your testimony.
                               __________

      PREPARED OPENING STATEMENT OF SENATOR COLLINS FOR MR. HEYMAN

    I join the Chairman in welcoming David Heyman as the nominee to be 
the Assistant Secretary for Policy at the Department of Homeland 
Security.
    The Department of Homeland Security's Policy Office is tasked with 
developing a comprehensive approach to policy and planning for the 
Department and bringing the various components of DHS, as well as its 
State, local, and private sector partners, together under a unified 
vision.
    As Assistant Secretary for Policy, Mr. Heyman would be directly 
responsible for establishing priorities and for seeing that they are 
implemented on a wide-range of homeland security issues. The Policy 
Office is now coordinating the Department's Quadrennial Homeland 
Security Review that is scheduled to be completed by December.
    In addition, the Policy Office is responsible for reviewing the 
continued participation of countries in the Visa Waiver Program, and 
ensuring the implementation of the enhancements to the security of that 
program that were included in the 2007 homeland security law, which was 
authored by this Committee.
    The Policy Office has already made significant strides in 
facilitating the conclusion of agreements with nations in the European 
Union to provide passenger name records on individuals traveling to the 
United States. Having this information will help identify individuals 
who may pose a danger to the United States--before they arrive at our 
borders. I look forward to hearing how Mr. Heyman would further 
strengthen the Visa Waiver Program and obtain agreements with all Visa 
Waiver Program countries to provide relevant law enforcement 
information on travelers to the Department, as required by the 2007 
law.
    I also look forward to hearing Mr. Heyman's views on how we should 
reauthorize chemical facility security legislation and the SAFE Port 
Act, which I co-authored, and how the Department should address growing 
cyber security threats.
    Mr. Heyman has a wealth of experience on homeland security policy 
issues from serving in positions both inside and outside of government. 
Most recently, Mr. Heyman was the Director of the Homeland Security 
Program at the Center for Strategic and International Studies where he 
studied a wide range of issues that are vital to the Department's 
success. He has also served as a senior advisor to the Secretary of 
Energy and as a senior analyst in the White House Office of Science and 
Technology Policy.
                               __________

 PREPARED OPENING STATEMENT OF SENATOR VOINOVICH FOR MS. DEMEO AND MS. 
                                  PAN

    Mr. Chairman, thank you for convening today's hearing. I also want 
to thank the nominees appearing before us today, both for their time 
and for their willingness to serve.
    As the Ranking Member on the Subcommittee on Oversight of 
Government Management, the Federal Workforce, and the District of 
Columbia, I would like to make a few brief comments about today's 
nominees for the Superior Court of the District of Columbia.
    I have reviewed both of these nominees' biographical questionnaires 
to learn about their significant academic and professional 
achievements. I believe they are both well qualified to be Superior 
Court Judges.
    Ms. Pan is currently an Assistant United States Attorney for the 
District of Columbia. She previously served as an advisor in the 
Department of the Treasury, as an attorney in the Criminal Appellate 
Section of the Department of Justice, as a Bristow Fellow in the Office 
of the Solicitor General, and as a law clerk to the Second Circuit 
Court of Appeals and the U.S. District Court for the Southern District 
of New York.
    Ms. Demeo is currently a Magistrate Judge in the Criminal Division 
of the District of Columbia Superior Court. She previously served as an 
Assistant United States Attorney for the District of Columbia, as an 
attorney for the Mexican American Legal Defense and Education Fund, and 
as an attorney in the Civil Rights Division of the Department of 
Justice.
    Clearly, both of these nominees have significant professional 
backgrounds that would serve them well on the bench.
    Mr. Chairman, you know that I believe it takes a unique individual 
to balance the responsibilities of protecting citizens' rights and 
liberties with upholding and interpreting the law. I believe that, if 
confirmed, Ms. Pan and Ms. Demeo will both fulfill those 
responsibilities with honor, courage, and character befitting the 
court.
    I hope that the Committee and the full Senate will consider both of 
these nominations in the very near future.
    Thank you.
                               __________

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               
                                 <all>

</pre></body></html>
